   Department of Health and Human Services

           OFFICE OF
      INSPECTOR GENERAL




Medicare Payment for Nonphysician Clinical Staff
          in Cardiothoracic Surgery




                        JANET REHNQUIST
                        INSPECTOR GENERAL

                            APRIL 2002
                           OEI-09-01-00130
                    OFFICE OF INSPECTOR GENERAL

                                        http://www.oig.hhs.gov/



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended,
is to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as
the health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:


Office of Audit Services

The OIG's Office of Audit Services (OAS) provides all auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine the
performance of HHS programs and/or its grantees and contractors in carrying out their respective
responsibilities and are intended to provide independent assessments of HHS programs and operations in
order to reduce waste, abuse, and mismanagement and to promote economy and efficiency throughout the
Department.


Office of Evaluation and Inspections

The OIG's Office of Evaluation and Inspections (OEI) conducts short-term management and program
evaluations (called inspections) that focus on issues of concern to the Department, the Congress, and the
public. The findings and recommendations contained in the inspections reports generate rapid, accurate,
and up-to-date information on the efficiency, vulnerability, and effectiveness of departmental programs.


Office of Investigations

The OIG's Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
allegations of wrongdoing in HHS programs or to HHS beneficiaries and of unjust enrichment by
providers. The investigative efforts of OI lead to criminal convictions, administrative sanctions, or civil
monetary penalties. The OI also oversees State Medicaid fraud control units which investigate and
prosecute fraud and patient abuse in the Medicaid program.


Office of Counsel to the Inspector General

The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support in OIG’s internal
operations. The OCIG imposes program exclusions and civil monetary penalties on health care providers
and litigates those actions within the Department. The OCIG also represents OIG in the global settlement
of cases arising under the Civil False Claims Act, develops and monitors corporate integrity agreements,
develops model compliance plans, renders advisory opinions on OIG sanctions to the health care
community, and issues fraud alerts and other industry guidance.
                          EXECUTIVE                         SUMMARY

PURPOSE

          This inspection assesses (1) the frequency, payment, and reasons cardiothoracic surgeons use
          their own nonphysician clinical staff to perform surgery-related hospital duties and (2) the
          manner and extent to which Medicare pays for these services.



BACKGROUND

          In 1992, the Centers for Medicare & Medicaid Services (CMS) dramatically changed the way
          it reimburses physician services under Medicare Part B by adopting a fee schedule for
          physicians’ services and establishing relative value units for physician work, practice expense,
          and malpractice insurance. In 1999, CMS specifically excluded the cost of physician’s clinical
          staff used in the hospital setting from the calculation of practice expense for all services,
          including cardiothoracic surgery. The Agency decided that the practice of bringing staff to the
          hospital was infrequent, and that it already paid the hospital for the cost of nonphysician clinical
          staff either through Part A, the Ambulatory Payment Classification system, or directly to the
          physician through the physician fee schedule work relative value units. The Society of Thoracic
          Surgeons objected to CMS’ decision. They believe that hospitals have reduced the number
          and skill levels of their staff and that advances in technology and the need for quality control are
          reasons why surgeons bring their own nonphysician clinical staff to the hospital. The American
          Hospital Association disputes the Society’s assertions about the extent to which surgeons bring
          their staff to the hospital. As a result, CMS asked the Office of Inspector General to assess
          staffing arrangements between hospitals and cardiothoracic surgeons.

          From the universe of cardiothoracic surgeries that were billed to Medicare in the first
          6 months of calendar year 2000, we used a stratified cluster sampling technique to select a
          sample of hospitals and surgeons for mail surveys. We received 322 valid responses to the
          surgeon survey (51.7 percent response rate) and 177 responses to the hospital survey (89.4
          percent response rate). We also reviewed the hospital licensing requirements of seven States
          with large Medicare populations.



FINDINGS

Medicare pays surgeons or hospitals for nonphysician clinical staff involved in
cardiothoracic surgery

          Medicare pays hospitals and surgeons for nonphysician clinical staff either through the inpatient
          hospital prospective payment system (Part A), the Ambulatory Payment

Cardiothoracic Surgery–Survey Results                  i                                       OEI-09-01-00130
          Classification system for hospital outpatient services, or the physician fee schedule 

          (Part B). Almost three-quarters of cardiothoracic surgeons report that they use one or more of

          their own nonphysician clinical staff to perform surgery-related functions at the hospital. This

          was confirmed by approximately 70 percent of the hospitals.


          Surgeons can bill and Medicare pays for medical services provided by certain mid-level

          practitioners (physician assistants, nurse practitioners, and clinical nurse specialists) in the

          hospital. However, surgeons cannot bill separately for other staff, such as pump perfusionists,

          registered nurse-first assistants, and operating room technicians. Reimbursement for these staff

          are paid to hospitals under Part A or the Ambulatory Payment Classification for hospital

          outpatient services.


Some compensation agreements exist between hospitals and surgeons

          While most hospitals do not pay surgeons for the use of their nonphysician clinical staff,
          approximately 19 percent of the hospitals do provide either partial or full compensation to
          surgeons.



CONCLUSION

          Medicare pays for nonphysician clinical staff even though surgeons do not receive additional
          payments for some of the staff they bring to the hospital. Instead, services of these staff are
          paid either to physicians through the work relative value units, to the
          mid-level practitioners directly, or to the hospital through Part A or the Ambulatory Payment
          Classification system for outpatient services. Recognizing this, some hospitals and
          cardiothoracic surgeons have entered into arrangements whereby hospitals provide some
          compensation to surgeons who bring their own nonphysician clinical staff.



AGENCY RESPONSE

          We received comments on the draft report from CMS. The Agency concurred with our
          conclusion and said that the report’s findings affirmed its decision to exclude the costs of
          physicians’ clinical staff used in the facility setting from Medicare’s practice cost calculations.
          The full text of the Agency’s comments appears in appendix D.




Cardiothoracic Surgery–Survey Results                   ii                                       OEI-09-01-00130
                         TABLE                        OF            CONTENTS
                                                                                                                              PAGE


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


FINDINGS


          Medicare pays for nonphysician clinical staff . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6


          Compensation agreements between hospitals and surgeons . . . . . . . . . . . . . . . . . . . . . . . . . 10


CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11


APPENDICES


          A: Description of Selected Cardiothoracic Surgery Procedures . . . . . . . . . . . . . . . . . . . . . 12


          B: Confidence Intervals for Selected Statistics . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13


          C: Regulation of Cardiothoracic Surgery for Selected States . . . . . . . . . . . . . . . . . . . . . . . . 16


          D: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18


ACKNOWLEDGMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21





Cardiothoracic Surgery–Survey Results                             iii                                                OEI-09-01-00130
                                         INTRODUCTION

PURPOSE

          This inspection assesses (1) the frequency, payment, and reasons cardiothoracic surgeons use
          their own nonphysician clinical staff to perform surgery-related hospital duties and (2) the
          manner and extent to which Medicare pays for these services.



BACKGROUND

Implementation of a Medicare Fee Schedule for Physicians’ Services

          In 1992, the Centers for Medicare & Medicaid Services (CMS) dramatically changed the way
          it reimburses services under Medicare Part B. Section 1848 of The Social Security Act
          required CMS to adopt a fee schedule for physicians’ services and establish relative value units
          (RVUs) for physician work, practice expense, and malpractice insurance. The payment
          amount for each service paid under the physician fee schedule is the product of three factors:
          (1) a nationally uniform relative value for the service, (2) a geographic adjustment factor for
          each physician fee schedule area, and (3) a nationally uniform conversion factor for the service.
          The conversion factors translate the relative values into payment amounts.

Medicare Reimbursement for Cardiothoracic Surgery

          Medicare reimburses both hospitals and surgeons for inpatient, outpatient, and professional
          care for cardiothoracic surgery. The inpatient component is reimbursed through the
          prospective payment system (Part A) or the Ambulatory Payment Classification (APC) system
          for outpatient services, while the professional component is reimbursed under the physician fee
          schedule (Part B).

          Part A Reimbursement. Medicare reimburses hospitals for all necessary, covered inpatient
          care.1 Services include, but are not limited to: bed and board; nursing services; certain
          diagnostic or therapeutic services; and drugs, biologicals, supplies, appliances, and equipment.2
          Reimbursement is based on several factors, including the use of hospital resources (e.g., staff),
          treatment patterns, and technology. 3 Part A reimbursement traditionally does not include
          physician services and the physician’s clinical staff used in the hospital. The Social Security



          1
           42CFR412.50.

          2
           42CFR409.10.

          3
           42CFR412.60.

Cardiothoracic Surgery--Survey Results                1                               OEI-09-01-00130
          Act requires CMS to adjust the prospective payment system annually based on changes in
          technology, inflation, hospital resources, and other factors.4

          Hospital Outpatient Reimbursement. Section 1833(t) of The Social Security Act
          authorized the implementation of the outpatient prospective payment system for hospitals.5 This
          system replaced the cost-based payment system which operated since Medicare was enacted
          in 1965. The outpatient prospective payment system, implemented August 1, 2000, classifies
          services according to a list of ambulatory payment classifications or APCs. Medicare
          reimbursement under APCs is prohibited for nonphysician services furnished to the hospital
          outpatient by a provider or supplier other than a hospital unless the services are furnished under
          arrangement. Therefore, the APCs include reimbursement for hospital-employed nonphysician
          clinical staff only.

          Part B Reimbursement. Surgeons receive reimbursement under the Medicare physician fee
          schedule for professional services, such as diagnosis, surgery, and consultation.6 Physician Part
          B services are covered when provided in the office or an institution, such as a hospital. The
          physician’s reimbursement includes overhead costs for the wages of typical nonphysician
          clinical staff, such as nurses. However, Medicare Part B does not pay for physicians’ clinical
          staff used in the hospital. Exceptions include some
          mid-level practitioners, such as physician assistants, nurse practitioners, and clinical nurse
          specialists. These mid-level practitioners may be licensed or certified under State law to
          perform special medical procedures, and the office and hospital services are covered and paid
          by Medicare.7 When these nonphysician clinical staff are employees of the surgeon, the
          surgeon can bill on their behalf, and Medicare reimburses the surgeon for their services.

Determining Practice Expenses

          The Social Security Act Amendments of 1994 required CMS to develop a methodology for a
          resource-based system for determining practice expense RVUs for each physician service. The
          legislation also required that any adjustments to these RVUs be budget neutral. The Balanced
          Budget Act of 1997 required CMS to implement the new payment methodology over a 4-year
          period, effective for services furnished in 1999, with resource-based RVUs as the sole basis for
          reimbursement in calendar year 2002. During the transition period, payment is based on a
          blend of charge-based practice expense



          4
           42CFR412.60(e).

          5
         Mandated in the Balanced Budget Act of 1997 and modified through the Balanced Budget
Refinement Act of 1999 and the Medicare, Medicaid, and SCHIP Benefits Improvement and
Protection Act of 2000.

          6
         Health Care Financing Administration, Carriers Manual, Part 3--Coverage and Limitations,
Section 2020A.

          7
           Ibid., Sections 2050.1B and 2390.

Cardiothoracic Surgery--Survey Results                2                               OEI-09-01-00130
          RVUs and resource-based practice expense RVUs. The Balanced Budget Refinement Act
          of 1999 required CMS to establish a process for accepting and using data that
          non-government organizations either collect or develop. These data would supplement the data
          CMS normally collects to develop the practice expense component of the physician fee
          schedule for calendar years 2001 and 2002. Refinement of practice expenses will be an
          ongoing process, because Congress requires CMS to review and adjust the RVUs 5 years
          after the end of the transition period, no later than 2007.

          The CMS has relied primarily on two sources of data on practice expenses. The first source is
          data from 15 Clinical Practice Expert Panels (comprised of physicians, administrators, and
          nonphysician clinicians), and the second is the American Medical Association’s Socioeconomic
          Monitoring System. The Agency also used data from a survey submitted by the Society of
          Thoracic Surgeons, which represents 3,000 cardiothoracic surgeons in the United States, to
          compute the practice expense for cardiothoracic surgery starting with the calendar year 2000
          physician fee schedule.

The Debate Over Practice Expense for Cardiothoracic Surgery

          In 1999, CMS excluded the cost assigned to all clinical staff in the hospital from the Clinical

          Practice Expert Panel data that are used in the calculation of practice expense. The Agency

          decided that the practice of bringing clinical staff to the hospital was infrequent, and that it

          already paid the hospital for the cost of nonphysician practitioners through Part A and the

          APCs, the physicians for the work of their physician extenders through the work RVUs, or to

          their mid-level practitioners directly. The Society of Thoracic Surgeons objected strongly to

          CMS’ decision. The Society claims that, during the last 10 years, hospitals have reduced the

          number and skill levels of their staff. Also, advances in technology and the need for quality

          control explain why cardiothoracic surgeons bring their own nonphysician clinical staff to the

          hospital.


          The American Hospital Association disputes the Society of Thoracic Surgeons’ assertions

          about the extent to which surgeons bring their staff to the hospital. The organization surveyed

          its members in 1997 and found that some hospitals that responded reported that at least one

          physician had brought their own clinical staff to the hospital during a 

          six-month period that year. (The survey did not ask hospitals which specialists typically

          brought nonphysician clinical staff to the hospital.) Some respondents said it was not a regular

          practice among surgeons. The American Hospital Association sent a follow-up survey to

          hospitals that had reported that physicians brought their own clinical staff and found that the use

          of physicians’ staff in the hospital did not reduce hospitals’ staffing costs.


          The CMS asked the Office of Inspector General to assess staffing arrangements between

          hospitals and cardiothoracic surgeons.





Cardiothoracic Surgery--Survey Results                 3                               OEI-09-01-00130
METHODOLOGY

          We mailed separate surveys to physicians and hospitals. We used a stratified cluster sampling
          technique to create both samples.

Selection of Hospital and Cardiothoracic Surgeon Samples

          We first defined a universe of hospitals consisting of those facilities with at least 

          10 inpatient admissions from the CMS national claims history file in diagnostic-related groups

          (DRG) 104, 105, 106, 107, and 109 in the first 6 months of calendar year 2000. (See

          appendix A for brief descriptions of cardiothoracic surgeries.) We stratified this universe into

          three strata: non-teaching hospitals, teaching hospitals with training programs in cardiovascular

          surgery, and teaching hospitals without training programs in cardiovascular surgery. We

          randomly selected and mailed surveys to 66 hospitals from each of these strata for a total of

          198 hospitals.


          We chose 6 inpatient claims from each of the sample hospitals, for a total of 1188 claims. We

          identified 635 unique physicians listed as the operating physician on these claims and 711

          unique physician-hospital combinations. The unit of analysis is the physician-hospital

          combination; responses from physicians with claims at multiple hospitals were entered

          separately for each hospital. The responses are weighted by each physician’s chance of

          selection, which is not based on the number of hospitals at which the physician practices.


                                              Universe Stratification

                                                                Claims from                      Physician-
         Hospital               Total    Hospital   Hospitals                  Claims
                                                                 Hospitals                        Hospital
         Stratum               Claims    Universe   Selected                   Selected
                                                                  Selected                      Combinations

 Non-teaching                  42235       430         66           5330           396               215

 Teaching with
 cardiovascular                26221       154         66           8228           396               248
 programs

 Teaching without
 cardiovascular                52270       362         66           6741           396               248
 programs

          Total              120726        946        198         20299           1188               711

          We initially obtained the physicians’ names and addresses through CMS’ Unique Physician
          Identification Number (UPIN) file. Whenever the address in the UPIN file was incorrect, we
          searched the Society of Thoracic Surgery website and then the Internet to identify the correct
          address for the physician. We then mailed the cardiothoracic surgeon’s survey to 623
          physicians who had current addresses.



Cardiothoracic Surgery--Survey Results                  4                                OEI-09-01-00130
          We received 322 valid responses to the surgeons’ survey and 177 valid responses to the
          hospital survey for response rates of 51.7 percent and 89.4 percent, respectively.

Nonrespondent Analysis

          We analyzed the characteristics of nonrespondent surgeons to determine whether they differed
          from respondents. We found that surgeons who were listed as the operating physician on more
          claims were more likely to respond to the survey. We compared the characteristics by the type
          of hospital (non-teaching/teaching and by type of teaching program), geographic location
          (urban/rural), hospital bed size, and type of ownership (profit/nonprofit/government). None of
          these comparisons, however, was significant at the 95 percent confidence level.

          To determine the effect of the relationship between responses and the number of claims, we
          conducted additional analysis of the statistics in the report. We assumed that
          non-respondents would have answered identically to respondents within the same claims
          volume categories. We then recalculated the statistics. All recalculations were within the 95
          percent confidence intervals of the original estimates. Therefore, we did not find any evidence
          of bias related to claims volume due to non-response.

Review of State Hospital Licensing Requirements for Cardiothoracic Surgery

          We reviewed State hospital licensing and other regulations for seven States with large
          Medicare populations--California, New York, Florida, Illinois, Pennsylvania, Ohio, and Iowa.
          The purpose was to identify State hospital regulations that specifically cover cardiothoracic
          surgery.8

          Our review was conducted in accordance with the Quality Standards for Inspections issued
          by the President’s Council on Integrity and Efficiency.




          8
          We excluded both Texas and Michigan, even though they have large Medicare populations.
Neither State has any hospital code or licensing provisions related specifically to cardiothoracic surgery.
The Texas general hospital code covers surgery, anesthesia, and post-operative recovery. The Michigan
hospital code is very brief and does not contain any provisions specifically for cardiothoracic surgery.

Cardiothoracic Surgery--Survey Results                 5                                 OEI-09-01-00130
                                           FINDINGS


Medicare pays surgeons or hospitals for nonphysician clinical
staff involved in cardiothoracic surgery

Almost Three-Quarters of Cardiothoracic Surgeons Bring Their Own Staff to the
Hospital

          Most cardiothoracic surgeons bring their own nonphysician clinical staff to the hospital to

          perform preoperative, intraoperative, and postoperative patient care. Approximately 

          74 percent of surgeons reported that they bring one or more of their own staff to perform

          hospital services. As one surgeon wrote, “We do 800+ heart surgeries a year and could not do

          this without our surgical assistant staff.” We found a positive correlation between the total

          number of surgeries that a surgeon performed and the probability that he brings his own staff to

          the hospital. The following table shows the frequency with which the 

          74 percent of surgeons bring particular types of nonphysician clinical staff to work in the

          hospital and the operating room.


                                         Staff Who Assist at Hospitals


                                                           Perform                Work in
                  Nonphysician Clinical Staff
                                                       Hospital Services       Operating Room

           Physician Assistant                                69.8%                  69.2%

           Pump Perfusionist                                  47.6%                  47.0%

           Clinical Nurse Specialist                          27.5%                   8.3%

           Nurse Practitioner                                 26.1%                  14.6%

           Operating Room or Scrub Technician                 20.1%                  20.1%
           Registered Nurse (including registered
                                                              12.7%                   9.0%
           nurse-first assistant)

          Hospitals also reported that many surgeons bring their own nonphysician clinical staff. Overall,
          approximately 69 percent of hospitals reported that surgeons bring their own staff to perform
          hospital services. Hospitals with training programs in cardiovascular surgery were least likely to
          report that surgeons bring their own staff (42.6 percent) versus non-teaching hospitals (71.0
          percent) or even teaching hospitals without training programs in cardiovascular surgery (77.1
          percent).




Cardiothoracic Surgery--Survey Results                6                               OEI-09-01-00130
Staff Responsibilities Vary Greatly

          Nonphysician clinical staff perform many functions while at the hospital and in the operating
          room. Responsibilities range from performing history and physical examinations upon the
          patient’s admission to harvesting veins that the surgeon uses for the bypass surgery. The chart
          below includes the hospital responsibilities mentioned most often by surgeons.

                         Top Hospital Responsibilities of Nonphysician Clinical Staff


    Surgeon’s
                                                     Responsibilities                                  Percent
      Staff

                         assists: first assistant during surgery                                        95.6%

                         completes discharge summaries                                                  68.4%
     Physician           provides postoperative care in the intensive care unit and/or patient
     Assistant                                                                                          65.4%
                         room

                         completes history and physical examinations and/or preoperative
                                                                                                        58.8%
                         consultations

      Pump               operates perfusion pump in operating room                                      98.2%
   Perfusionist          other functions in the operating room                                          16.3%

                         provides preoperative care and/or patient instructions                         84.1%
      Clinical
      Nurse              completes discharge summaries                                                  48.5%
     Specialist
                         completes other postoperative functions (e.g., wound checks)                   44.5%

                         completes preoperative care and/or patient instructions                        75.2%

                         provides postoperative care in the intensive care unit and/or patient
     Nurse                                                                                              39.6%
                         room
   Practitioner
                         completes discharge summaries                                                  39.1%

                         assists: second assistant during surgery                                       35.8%

          Surgeons mentioned responsibilities of other nonphysician clinical staff who work at the
          hospital. Registered nurses most often provide preoperative care (63.1 percent) and, for some
          surgeons, also act as surgical first assistant (called registered nurse-first assistant or RNFA) in
          the operating room (48.1 percent). Technicians work primarily in the operating room.

          We compared responses of surgeons who bring their own staff to the number of procedures
          they performed at the hospital, the type of hospital (non-teaching/teaching,



Cardiothoracic Surgery--Survey Results                     7                              OEI-09-01-00130
          and by type of teaching program), geographic location (urban/rural), hospital bed size, and
          profit/nonprofit/government ownership. None of these comparisons was significant at the 95
          percent confidence level.

Surgeons Cite Lack of Appropriate Hospital Staff and Specialized Training as
Major Reasons to Bring their Own Staff

          Cardiothoracic surgeons gave many reasons as to why they use their own nonphysician clinical
          staff rather than hospital staff to provide preoperative, intraoperative, and postoperative care to
          their patients. The major reasons are, but are not limited to:

                                         Reason                                      Percent 9

          1.         The hospital does not have staff to assist during surgery 75.1%
          2.	        Surgeon’s staff is efficient and has appropriate training
                     in surgical techniques                                          73.0%
          3.         Hospital staff does not have the right skills                   57.0%
          4.	        Hospital does not have staff for preoperative
                     and postoperative care                                          34.6%
          5.         Personal preference                                             30.4%

          Other reasons (8.3 percent) include (1) the lack of enough physician assistants to assist at all
          surgeries performed by the surgeons daily, (2) the availability of the surgeon’s staff after regular
          office hours and in emergency situations, and (3) the majority of the hospital’s nursing staff is
          transient.

          Many surgeons expanded their reasons for bringing their own nonphysician clinical staff to the
          hospital. One surgeon noted, “The technical skills and degree of knowledge for cardiovascular
          surgery personnel is not available unless my group provides it. The hospital simply will not or
          cannot.” A second surgeon commented, “ ...the number of staff required to support
          cardiovascular care of good to excellent quality is enormous.” And yet a third surgeon said,
          “My partners and I rely heavily on the assistance of our nurses with so many aspects of patient
          care. We would not be able to provide the same standard of care without their professional
          expertise. . . . the elderly (Medicare) patient especially requires an experienced and astute
          individual to assess his or her past medical history, present condition, and postoperative
          recovery.”

Surgeons Can Bill for Physician Assistants, Nurse Practitioners, and Clinical
Nurse Specialists

          Surgeons can bill and Medicare Part B does pay separately for mid-level practitioners (such as
          physician assistants, nurse practitioners, and clinical nurse specialists) who



          9
           Surgeons may have included more than one reason.

Cardiothoracic Surgery--Survey Results                 8                                OEI-09-01-00130
          provide services to patients in the surgeon’s office or the hospital.10 In our sample,
          approximately 53 percent of surgeons brought at least one physician assistant, nurse
          practitioner, or certified nurse specialist to the hospital to work in the operating room.
          Approximately half of these surgeons billed Medicare and received payment for those staff.

          Nearly 70 percent of surgeons who bring their own staff said that physician assistants perform
          hospital services, particularly in the operating room. Medicare will pay for the services of
          physician assistants “ . . . who are legally authorized to furnish services in the State and who
          render the services under the supervision of a physician in a hospital, . . . or when the physician
          assistant performs the services of an assistant at surgery.”11 Surgeons use a modifier on
          Medicare claims to identify services provided by physician assistants during surgery.
          Reimbursement for physician assistants as assistant surgeons generally is limited to
          approximately 10 percent of the surgeon’s fee schedule amount.

Hospitals, Not Surgeons, Receive Reimbursement for Nurses and Pump
Perfusionists

          Nurses who perform hospital duties are typically employed by hospitals, not surgeons. We

          asked hospitals to specify the hospital employees who are available to assist cardiothoracic

          surgeons during surgery and found that registered nurses (89.5 percent) and operating room

          technicians (86.8 percent) are the most commonly employed nonphysician hospital staff. Since

          the hospital payment includes reimbursement for wages, surgeons cannot bill and receive

          reimbursement for some of their own staff, such as registered nurse-first assistants, pump

          perfusionists, and operating room technicians.


          Almost half of the surgeons (47.6 percent) who bring their own nonphysician clinical staff

          reported that they employ pump perfusionists, the staff who operate the heart pump during

          surgery. When the American Hospital Association surveyed its members in 1997, it asked

          about the types and functions of staff who were employed by surgeons. Although the

          association did not ask specifically whether or not surgeons employed pump perfusionists (they

          were considered “other personnel types”), hospitals reported that 

          10 percent of the surgeon’s nonphysician clinical staff operate the perfusion pump. In our

          survey, approximately 65 percent of the hospitals reported that they provide perfusionists,

          usually under contractual arrangements rather than as hospital employees.


Hospitals Rarely Reduce Staffing When Surgeons Bring Their Own Staff

          All States regulate hospitals through licensing, and those requirements usually set minimum
          staffing levels and staff qualifications. Our limited review of State licensing regulations showed
          that hospitals may be required to provide certain staff to be licensed


          10
          Health Care Financing Administration, Carriers Manual, Part 3, Chapter XVI (NonPhysician
Practitioner Services), Sections 16000-16003.

          11
            Ibid, Section 16001.

Cardiothoracic Surgery--Survey Results                 9                               OEI-09-01-00130
          in their State for cardiothoracic surgery. Therefore, hospitals cannot reduce their staffing when
          surgeons bring their own staff to the hospital.12 Of the 70 percent of hospitals that responded
          that surgeons bring their own staff, only six hospitals reduce their staffing levels in response to
          surgeons’ use of their own staff.



Some compensation agreements exist between hospitals and
surgeons

          Surgeons typically are responsible for the costs of their nonphysician clinical staff. While most
          hospitals do not compensate surgeons for the staff that they bring to the hospital, approximately
          19 percent of hospitals said that they provide either partial or full compensation. Likewise,
          approximately 19 percent of the surgeons responded that they receive compensation from the
          hospital. Since the reimbursement for pump perfusionists is typically included in the Medicare
          hospital payment, some hospitals reimburse the surgeons for this staff.




          12
           Appendix D summarizes regulations for cardiothoracic surgery and post-operative staffing
requirements for the seven States we reviewed, each of which has a large proportion of Medicare
beneficiaries.

Cardiothoracic Surgery--Survey Results                10                                OEI-09-01-00130
                                         CONCLUSION


          Medicare pays for nonphysician clinical staff even though surgeons do not receive additional
          payments for some of the staff they bring to the hospital. Instead, services of these staff are
          paid either to physicians through the work relative value units, to the mid-level practitioners
          directly, or to the hospital through Part A or the Ambulatory Payment Classification system for
          outpatient services. Recognizing this, some hospitals and cardiothoracic surgeons have entered
          into arrangements whereby hospitals provide some compensation to surgeons who bring their
          own nonphysician clinical staff.



AGENCY RESPONSE

          We received comments on the draft report from CMS. The Agency concurred with our
          conclusion and said that the report’s findings affirmed its decision to exclude the costs of
          physicians’ clinical staff used in the facility setting from Medicare’s practice cost calculations.
          The full text of the Agency’s comments appears in appendix D.




Cardiothoracic Surgery--Survey Results                 11                                OEI-09-01-00130
                                                                                        APPENDIX A

       Description of Selected Cardiothoracic Surgery Procedures


Coronary Bypass Graft Surgery

          Coronary bypass procedures use either a vein harvested from the leg, or the vein and an artery
          (usually the internal mammary artery from the chest) to bypass an atherosclerotic narrowing of
          the coronary artery. Although the procedures involve substantial risks (e.g., death, stroke, and
          other neurologic complications), the outcomes are proven and longer lasting than other
          procedures.13 Bypass surgeries are included in the diagnostic-related groups (DRG) 106, 107,
          and 109.

Valve Procedures With or Without Coronary Bypass Graft Surgery

          Valve disorders are the second most common form of heart disease in adults, and they most
          frequently involve the aortic valve. The most common forms of aortic valve disease are stenosis
          (a pressure overload which occurs as blood flows across a narrowed valve) and insufficience
          (an improperly-closing valve which causes a blood volume overload on the heart and the blood
          then flows back into the heart). Although patients with valve disease can be asymptomatic,
          untreated valve disorders eventually cause symptoms such as chest pain, shortness of breath,
          fainting, as well as serious damage to the heart.14 In patients with clear-cut symptoms of
          coronary artery disease, a combined surgery of valve replacement and bypass might be
          necessary. 15 The valve procedures, with and without simultaneous bypass surgery, are in
          DRGs 104 and 105.




          13
         The Center for the Evaluative Clinical Sciences/Dartmouth Medical School and The Center for
Outcomes Research and Evaluation /Maine Medical Center, The Dartmouth Atlas of Cardiovascular
Health Care, 1999, p. 72.

          14
            Ibid, p. 192.

          15
            Ibid, p. 198.

Cardiothoracic Surgery--Survey Results               12                              OEI-09-01-00130
                                                                                            APPENDIX B


                       Confidence Intervals for Selected Statistics



          The following table shows the point estimates and 95 percent confidence intervals for selected
          statistics, in the order that they appear in the report. These calculations account for all levels of
          clustering and stratification as described in the methodology.


                                                                         Point            95 Percent
                               Statistic                        N
                                                                        Estimate      Confidence Interval
 Percent of cardiothoracic surgeons who bring
                                                                353      74.11%          62.21% - 86.01%
 their own staff to the hospital

 Percent of hospitals that reported surgeons bring
                                                                177      69.19%          62.85% - 75.52%
 their own staff to the hospital

                                Surgeons’ Clinical Staff Who Assist at Hospitals

 Percent of physician assistants from surgeons’
                                                                248      69.84%          53.07% - 86.61%
 staffs who perform hospital services

 Percent of physician assistants from surgeons’ staffs
                                                                248      69.23%          52.43% - 86.03%
 who perform services in the operating room

 Percent of nurse practitioners from surgeons’ staffs
                                                                248      26.14%          15.96% - 36.33%
 who provide hospital services

 Percent of nurse practitioners from surgeons’ staff
                                                                248      14.59%          5.74% - 23.44%
 who perform services in the operating room

 Percent of clinical nurse specialists from surgeons’
                                                                248      27.50%          17.34% - 37.66%
 staffs who provide hospital services

 Percent of clinical nurse specialists from surgeons’
                                                                248       8.30%          2.59% - 14.01%
 staff who perform services in the operating room

 Percent of pump perfusionists from surgeons’ staffs
                                                                248      47.60%          29.24% - 65.96%
 who provide hospital services

 Percent of pump perfusionists from surgeons’ staff
                                                                248      47.00%          28.62% - 65.37%
 who perform services in the operating room

 Percent of registered nurses (including registered
 nurse-first assistants) from surgeons’ staff who               248      12.68%          6.46% - 18.90%
 provide hospital services

 Percent of registered nurses (including registered
 nurse-first assistants) from surgeons’ staffs who              248       9.00%          3.83% - 14.17%
 perform services in the operating room



Cardiothoracic Surgery--Survey Results                  13                               OEI-09-01-00130
                                                                                   APPENDIX B


                                                                   Point         95 Percent
                               Statistic                    N
                                                                  Estimate   Confidence Interval
                       Surgeons’ Clinical Staff Who Assist at Hospitals (continued)

 Percent of operating room or scrub technicians
                                                            248   20.05%        7.90% - 32.21%
 from surgeons’ staffs who provide hospital services

 Percent of operating room or scrub technicians from
 surgeons’ staff who perform services in the operating      248   20.05%        7.90% - 32.21%
 room

                             Reasons Why Surgeons Bring Own Staff to Hospital

 Percent of cardiothoracic surgeons who bring their
                                                            244   30.36%        25.25% - 40.47%
 staff because of personal preference

 Percent of cardiothoracic surgeons who bring their
 own staff because the hospital does not have staff         244   75.14%        65.14% - 85.14%
 to assist during surgery

 Percent of cardiothoracic surgeons who bring their
 own staff because the hospital staff does not have         244   56.96%        41.69% - 72.22%
 the right skills

 Percent of cardiothoracic surgeons who bring their
 own staff because the hospital does not have staff         244   34.56%        24.17% - 44.94%
 for preoperative and postoperative care

 Percent of cardiothoracic surgeons who bring their
 own staff because the surgeon’s staff is efficient         244   73.04%        59.90% - 86.18%
 and trained by surgeon

 Percent of cardiothoracic surgeons who bring their
                                                            244    8.30%        3.89% - 12.73%
 own staff for other reasons

                      Hospitals Pay Surgeons for Their Nonphysician Clinical Staff

 Percent of hospitals that pay any cost of
 cardiothoracic surgeons’ staff who assist at the           114   18.52%        11.72% - 25.33%
 hospital

 Percent of hospitals that pay entire cost of
 cardiothoracic surgeons’ staff who assist at the           21    34.59%        15.13% - 54.05%
 hospital

 Percent of hospitals that share the cost of
 cardiothoracic surgeons’ staff who assist at the           21    44.68%        24.55% - 64.82%
 hospital




Cardiothoracic Surgery--Survey Results                 14                       OEI-09-01-00130
                                                                                       APPENDIX B


                                                                      Point           95 Percent
                               Statistic                      N
                                                                     Estimate     Confidence Interval
                                           Staff Provided by Hospitals

 During surgery, percent of hospitals that provide
                                                              177        16.70%     12.94% - 20.45%
 residents

 During surgery, percent of hospitals that provide
                                                              177        25.50%     19.99% - 31.50%
 other physicians

 During surgery, percent of hospitals that provide
                                                              177        28.55%     22.42% - 34.68%
 physician assistants

 During surgery, percent of hospitals that provide
                                                              177        6.32%       3.14% - 9.51%
 nurse practitioners

 During surgery, percent of hospitals that provide
                                                              177        6.26%       3.41% - 9.11%
 clinical nurse specialists

 During surgery, percent of hospitals that provide
                                                              177        89.99%     85.27% - 93.71%
 registered nurses

 During surgery, percent of hospitals that provide
                                                              177        9.46%      5.40% - 13.53%
 licensed vocational nurses

 During surgery, percent of hospitals that provide
                                                              177        64.93%     58.14% - 71.72%
 pump perfusionists

 During surgery, percent of hospitals that provide
                                                              177        32.22%     25.70% - 38.74%
 nurse anesthetists

 During surgery, percent of hospitals that provide
                                                              177        86.83%     82.10% - 91.56%
 operating room surgical technicians

 During surgery, percent of hospitals that provide
                                                              177        12.04%     7.41% - 16.77%
 other staff




Cardiothoracic Surgery--Survey Results                 15                           OEI-09-01-00130
                                                                                            APPENDIX C


         Regulation of Cardiothoracic Surgery for Selected States



          Our limited review of State regulations showed that hospitals may be required to provide
          certain staff to receive State licensure for cardiothoracic surgery and cannot reduce their staffing
          when physicians bring their nonphysician staff to the hospital. The chart summarizes regulations
          for cardiothoracic surgery and post-operative staffing requirements for the seven States. A
          State may have other, general regulations covering surgery, anesthesia, acute care services, and
          post-operative recovery. Nursing personnel, in particular, are required to be present during
          and after surgery.



              State Code or Regulations                       CA        NY   FL    IL     PA       OH     IA
                                         Staffing for Cardiothoracic Surgery

 Chief surgeon qualified in cardiothoracic surgery
                                                               X        X    X     X       X        X     X
 present

 Other qualified cardiovascular surgeons present               X        X    X             X        X     X

 Qualified cardiovascular radiologist present                           X          X       X              X

 Qualified radiologic technologists present                             X                  X

 Anesthesiologist qualified for cardiovascular surgery                  X    X     X       X        X

 Pathologist qualified for cardiac abnormalities                        X          X       X              X

 Cardiologist present                                                   X          X       X              X

 Nurse personnel qualified in cardiovascular surgery                    X    X                            X

 Perfusionists qualified to operate extracorporeal
                                                               X        X    X                            X
 pump



                                                   Header Coding:

                                                   CA = California

                                                   NY = New York

                                                   FL = Florida

                                                   IL = Illinois

                                                   PA = Pennsylvania

                                                   OH = Ohio

                                                   IA = Iowa



Cardiothoracic Surgery--Survey Results                   16                             OEI-09-01-00130
                                                                                              APPENDIX C


               State Code or Regulations                       CA    NY       FL     IL     PA       OH      IA
                                         Staffing for Post-Operative Recovery

 Physician responsible for conduct of recovery room                                  X       X

 Qualified supervisory nurse always in recovery room                  X       X      X       X        X

 Registered recovery room nurse always in
                                                                              X      X       X        X
 attendance

 Sufficient nursing personnel to provide specialized
                                                                              X      X       X        X
 care

 Nurse to patient ratio for intensive care unit                                      X

 Staff to constantly attend anesthetized patients                     X              X       X        X

 Supervisor of non-medical anesthesia personnel                       X              X       X

 Staff to supervise and assist family/recovery room
                                                                      X                      X        X
 visitors

                                            Mandatory Services/Facilities16

 Surgical and cardiology team                                                 X      X       X        X

 Cardiopulmonary resuscitation team or capability                             X              X        X

 Cardiac surgical intensive care unit                                                X       X

 Emergency room staffed for cardiac emergencies                               X      X       X        X

 Catheterization-angiography laboratory services                              X      X       X               X

 Nuclear medicine laboratory                                                         X

 Cardiographics laboratory and electrocardiography                            X      X       X        X      X

 Echocardiography service                                                            X       X        X

 Blood bank/Hematology/Coagulation laboratory                                 X      X       X        X      X

 Pulmonary function unit                                                      X      X       X        X

 Renal dialysis                                                                      X       X

 Infectious disease control                                                   X              X               X




          16
            These services must be available 24 hours a day if the hospital offers cardiothoracic surgery.

Cardiothoracic Surgery--Survey Results                    17                              OEI-09-01-00130
                                                                APPENDIX D


                                         Agency Comments





Cardiothoracic Surgery--Survey Results          18          OEI-09-01-00130
                                                  APPENDIX D




Cardiothoracic Surgery--Survey Results   19   OEI-09-01-00130
                                                  APPENDIX D




Cardiothoracic Surgery--Survey Results   20   OEI-09-01-00130
                              ACKNOWLEDGMENTS


This report was prepared under the direction of Paul A. Gottlober, Regional Inspector General
for Evaluation and Inspections in San Francisco. Other principal Office of Evaluation and Inspections
staff who contributed include:

Cindy Lemesh, Project Leader                           Tricia Davis, Program Specialist
Deborah Harvey, Project Leader                         Stephanie Lattin, Program Specialist
Cheryl Dotts, Program Assistant                        Linda Moscoe, Technical Support Staff
Robert Gibbons, Program Analyst                        Brian Ritchie, Technical Support Staff
Scott Hutchison, Program Analyst
Thomas Purvis, Program Analyst
Christopher Tarbell, Program Analyst
Steven Zerebecki, Program Analyst




Cardiothoracic Surgery--Survey Results            21                              OEI-09-01-00130
